No. 19-430

 

 

IN THE

Supreme Court of the Anited States

ATHENA DIAGNOSTICS, INC., OXFORD UNIVERSITY
INNOVATION LTD., and MAX-PLANCK-GESELLSCHAFT
ZUR FORDERUNG DER WISSENSCHAFTEN E.V.,

Petitioners,
Vv.
Mayo COLLABORATIVE SERVICES, LLC, DBA Mayo
MEDICAL LABORATORIES, and MAYO CLINIC,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Federal Circuit

BRIEF FOR THE
PHARMACEUTICAL RESEARCH AND
MANUFACTURERS OF AMERICA
AS AMICUS CURIAE IN SUPPORT OF
PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,298 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 1, 2019.

C He
Colin CaseyYHogan

Wilson-Epes Printing Co., Inc.
